ES, IG-98-027, NASA Costs Paid to Rehired Former JPL Employees
NASA COSTS PAID TO REHIRED FORMER
JET PROPULSION LABORATORY
EMPLOYEES
IG-98-027
Executive Summary
Background
The Jet Propulsion Laboratory (JPL) is a Federally Funded Research and
Development Center (FFRDC) operated by the California Institute of
Technology (CalTech) under National Aeronautics and Space Administration
(NASA) contract NAS7-1260.  JPL, staffed primarily with CalTech employees,
is a Government-owned installation in Pasadena, California.
JPL hires full-time and part-time employees, consultants
(1)
and on-call
(2) employees to perform work under contract
NAS7-1260. Also, JPL's policy
(3) (waiver, see Appendix B) allows current
or former employees to form their own companies and bid for JPL procurements.
As of October 1997, JPL consulting services authorized funds totaled
about $13 million.  For calendar year (CY) 1997, JPL reported an
estimated $1.4 million for on-call services.
Objective
The overall objective was to determine whether NASA has adequate controls
over payments to former JPL employees rehired to perform work under contract
NAS7-1260.  (See additional details on objective, scope, and methodology in
Appendix A.)
Results of Audit
NASA controls over costs for former JPL employees rehired to perform work
under contract NAS7-1260 can be improved. Specifically, JPL (1) rehired
former employees as consultants and extended their services without
adequate justification and (2) paid former employees as consultants at a
daily rate that exceeded their JPL final salary rate.  Also former
employees were rehired as on-call personnel without adequate justification
and were paid (1) for travel expenses not initially approved or (2)
more than the annual maximum hours allowed without approval.  As a result,
we could not determine whether services received by NASA were allowable or
reasonable.  Of $538,496 in sampled costs for consulting services, we
questioned $54,674 for consultants' pay that exceeded their final JPL
compensation rate.  Similarly, we questioned $41,274 of $3.8 million
(4) for sampled on-call services paid to
on-call personnel who worked in excess of the maximum hours allowed by JPL
policy.
Recommendations
We recommended that the Director, NASA Management Office at JPL, direct JPL
to (1) comply with existing procedures for hiring consultants and on-call
personnel, (2) revise its procurement policies and procedures to include
managerial review and approval of consultant agreements and documentation
of consultants' work, and (3) establish procedures for justifying rehiring
former employees for on-call services and for documenting travel expenses
for employees who moved out of JPL's commuting area.
Furthermore, we recommended that the Director review the reasonableness of
costs paid for obtaining consulting and on-call services from former JPL
employees and recover any unreasonable costs.
Management's Response and Evaluation of the Response
Management either concurred or concurred with the intent of all
recommendations and will take recommended actions to ensure adequate
controls over payments to former JPL employees rehired to perform work
under contract NAS7-1260. We consider planned actions responsive to the
intent of the recommendations.
FOOTNOTES
1.  A consultant provides advisory services to JPL but does not supervise the performance of operating functions.  Some consultants may be former JPL employees.
2.  On-call employees may provide services (for example, manage specific work, supervise operations) other than advisory services. On-call employees may also work at irregular or infrequent intervals.   Some on-call employees may be former JPL employees.
3.  The audit scope did not include a review of this policy.
4.  Reviewed on-call costs for CYs 1996 and 1997 totaled $2.4 million and $1.4 million, respectively.